HHS/OIG, Audit -"Review of Graduate Medical Education Costs Claimed By The Baystate Medical center For Fiscal Year Ended September 30, 1999,"(A-01-02-00514)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Graduate Medical Education Costs Claimed By The Baystate
Medical Center For Fiscal Year Ended September 30, 1999," (A-01-02-00514)
April 2, 2003
Complete
Text of Report is available in PDF format (556 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our review of medical education payments
claimed by the Baystate Medical Center for the fiscal year (FY) ended September
30,1999.   The objective of our review was to determine the accuracy
of resident Full Time Equivalent (FTE) counts used to calculate direct graduate
medical education (GME) and indirect medical education (IME) payments.  We
found that the Hospitals controls over the proper claiming of resident FTEs
were generally adequate with the exception of 6.4 GME FTEs and 5.8 IME FTEs
that did not meet Medicare criteria for reimbursement.  The effect of
these errors did not reduce the FTE counts below established limits on FTEs
allowable to be claimed.  Therefore, there was no adverse financial impact
to the Hospitals FY 1999 GME/IME reimbursement.  However, we believe
such adjustments should be made and corrective policies be put in place in
order to provide accurate historical information used in future years reimbursements.  We
recommended that the Hospital strengthen its procedures to ensure that resident
FTE counts are computed in accordance with Medicare regulations.  The
Hospital agreed with our findings and recommendation.